WAIVER
SUPREME COURT OF THE UNITED STATES
No.

20-1756

Ethan Fullerton, et al.

LG Chem, Ltd.

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

O

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

C

Signature:

17/14/21

Date:

(Type or print) Name Rachel Atkin Hedley
O Mr.

®

Ms.

Mrs.

O

Firm

INelson Mullins Riley & Scarborough LLP

Address

[1320 Main Street, 17th Floor

City & State

[Columbia, South Carolina

Phone

[(803) 255-5565

O Miss

Zip
Email

[26201

achel.Hedley©nelsonmullins.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Ian Charles Dell'Ario, Counsel of Record for Petitioners
cc:

